                                        SOCIAL SECURITY
MEMORANDUM
Date:   July 10, 2003                                                            Refer To:

To:     Martin H. Gerry
        Deputy Commissioner
         for Disability and Income Security Programs

From:   Assistant Inspector General
         Audit

Subject: Evaluation of the Accelerated eDib System – Fourth Assessment (A-14-03-23069)



        The Social Security Administration’s (SSA) Office of the Inspector General (OIG) has
        completed its fourth assessment in our ongoing evaluation of the Accelerated eDib
        (AeDib) system (formally the Electronic Disability or eDib system). We conducted this
        fourth assessment from January 2003 through June 2003 at SSA Headquarters in
        Baltimore, Maryland. While we did not conduct an audit of the AeDib process, our
        assessment addressed those issues that arose at the AeDib Steering Committee. We
        were unable to determine the full scope of some of the AeDib problems addressed in
        this memorandum due to access limitations to Office of Systems (OS) staff and
        documentation. Those limitations are described throughout the memorandum.

        As part of our fourth assessment, we considered the following issues:

        •   The Office of Disability and Income Security Programs’ (ODISP) participation in the
            AeDib project.
        •   The AeDib’s 5.0 software validation and release.
        •   Data security at the disability determination services (DDS).
        •   Reduction of the number of scanned pages used in each disability case.
        •   Most AeDib project deadlines met by deferring functionality.

        ODISP PARTICIPATION IN THE AeDib PROJECT

        SSA developed the Web-based Project Resource Guide (PRIDE) to guide project
        managers, team leaders and team members when planning and executing system
        development projects. Based on this guide, ODISP is the Sponsoring Component,1 and
        as such, is the principal user and owner of the AeDib system and is primarily



        1
          The Sponsoring Component is the component that owns the business process. The Sponsor finances
        the project and provides strategic direction.
     Page 2 - Martin H. Gerry

     responsible for the finances and strategic direction. OS is the Developer2 and should
     design the system to ODISP specifications.

     PRIDE calls for the sponsors of projects, such as ODISP, to be extensively involved in
     the development of a new system, such as AeDib. The ODISP project team needs to
     aggressively enforce PRIDE requirements in the following phases.

         PRIDE REQUIREMENTS                                             AeDib STATUS

     Conduct a Security Risk Assessment

          Lead - Sponsor & Developer                   The designated Developer and primary sponsor
                                                       only attended one AeDib Security meeting as of
The Systems and Business Project Managers                                05/16/03.
must ensure all appropriate security parties are
        involved in project planning.
  Conduct Appropriate Database Activities
                                                           ODISP and OS have not yet completed
          Lead - Sponsor & Developer                    assessing the fields the electronic folder needs

   Identify resources & requirements early
       Plan for Validation and Testing                  No formal ODISP concurrence or sign off of the
                                                                      Validation Plan
         Lead - Sponsor and Developer
                                                          The OS did not provide any evidence of its
Although not required by PRIDE, the Validation          validation efforts, except for its Validation Plan.
 Strategy Plan example in PRIDE shows both
        Sponsor & Developer sign-offs.
      Conduct Validation and Verification                   OS did not provide us with the Validation
                                                             Analysis Report and System Release
         Lead - Sponsor and Developer                                  Certification form.

 Validation Analysis Report is completed, and            ODISP doesn’t verify that system releases
  the Systems Release Certification form is                meet the needs set forth in its functional
            completed and signed.                                       requirements.
         Release (Move) to Production                   OS periodically contacts ODISP via telephone
                                                        to inform them of the status of the validation.
  Lead – Deputy Commissioner for Systems
                  (DCS)                                  No formal release and certification by ODISP.

  Sponsor determines when the software is
   moved to the Production environment.

     2
      The Developer: 1) reviews the systems requirements, 2) develops prototypes, 3) designs the system
     and allocates requirement to system components, 4) develops internal software specs and detailed
     system design, 5) develops and unit tests software, and 6) manages versions.
Page 3 - Martin H. Gerry


THE AeDib 5.0 SOFTWARE VALIDATION AND RELEASE

OS issued software release 5.0 for the AeDib Systems on March 3, 2003. Release 5.0
adds the capability for field offices to take Title XVI disabled child claims. The following
flow chart documents the Agency’s required process for conducting validations during
systems development.




The OIG found about 303 production problems shortly after the release of AeDib 5.0
software. As a result, the software may need to be fixed in later, more costly, stages of
the software development process. We also identified the following AeDib software
production problems:




3
 The DCS did not provide the OIG with requested documentation detailing the exact number of
production errors incurred as a result of version 5.0.
Page 4 - Martin H. Gerry

•   There were 5,000 duplicate cases.

•   There were claims taken for Title XVI disabled individuals in the Modernized
    Supplemental Security Income Claims System that were recorded in the Electronic
    Disability Collect System (EDCS) as disabled children.

•   There were numerous incorrect EDCS edits based on the Internet 3368s that claims
    representatives needed to resolve. One claims representative reported taking
    3 hours to “clean up” an Internet 3368 imported into EDCS.

The OIG attempted to determine the causes of the production errors through
examination of the AeDib 5.0 validation documents and interviews with the validation
team members. However, we were only provided with one of the validation and testing
documents and were not provided the necessary access to individuals involved in the
validation process. The only validation document received was the AeDib 5.0 Validation
Plan. However, because this Validation Plan was dated 50 days after AeDib 5.0
software was released into production (March 3, 2002), we could not determine the
adequacy and usefulness of the Validation Plan at the time of testing.

AeDib release 5.0 was validated in only 22 days with the number of validation runs
reduced from 3 to a single run. Normally, the Division of Configuration Management
and Validation Technology validates a system in an average of 864 days. AeDib
release 4.2.3, which was not a major release, was validated over a 60-day period. Due
to the limited time spent in validation there were a number of significant problems
associated with this release.

The premature release of software is both time consuming for individuals processing
claims and expensive to the Agency. The Baziuk Study,5 detailed on page 5, is just one
of many studies that show the substantial cost of repairing software defects found after
the software is operational. This study indicated that the cost to repair an error during
systems testing is 90 times more expensive than when the error is found during the
requirements phase. Furthermore, once the system is operational, the cost increases to
between 470 to 880 times than when the error is found in the requirements phase.
Therefore, SSA’s systems development efforts would benefit, in the long term, by
identifying and correcting software errors at the earliest possible stage in its systems
development.




4
  We obtained the average number of days to validate software from the Agency’s Validation Testing
Project Status tables as of March 4, 2003.
5
  Carroll, Charles T., The Cost of Poor Testing: A U.S. Government Study, Part 1, EDPACS: EDP Audit,
Control, and Security, 31:1, Auerbach Publications, (July: 2003).
Page 5 - Martin H. Gerry




SSA plans to begin a nationwide rollout of AeDib beginning in January 2004. However,
before the AeDib software is expanded nationwide, it is critical that the thorough
validation required by PRIDE is completed and the system is certified as ready for
release into production. This certification should be completed by the project’s sponsor
who is familiar with the systems requirements, yet independent from the AeDib software
design and development teams.

DATA SECURITY AT DDSs NEEDS IMPROVEMENT

Recent OIG6 and PricewaterhouseCoopers7 (PwC) audits found that data security at
State DDSs needs improvement. DDS security will be even more important in 2004,
when SSA begins granting the DDSs direct access to the Agency’s electronic folder. In
2004, the Agency’s electronic folder is expected to house sensitive data from SSA, DDS
and the Office of Hearings and Appeals (OHA). Therefore, someone gaining improper
access through a DDS could obtain access to the Agency’s data. To increase security
requirements for the State DDSs, the Agency has already agreed to, and is in the
process of implementing, many of the reported OIG and PwC recommendations. Once


6
  General Controls of the Alabama Disability Determination Services Claims Processing System Need
Improvement, A-14-02-22089, September 2002; and General Controls of the Washington Division of
Disability Determination Services Claims Processing System Need Improvement, A-14-02-22093 (not yet
issued).
7
  Social Security Administration Fiscal Year 2001 Management Letter Part I, November 30, 2001 and
Social Security Administration Fiscal Year 2002 Management Letter Part I, November 14, 2002.
Page 6 - Martin H. Gerry

the DDSs implement these new requirements, the security of SSA’s data should be
greatly enhanced.

REDUCTION OF THE NUMBER OF SCANNED PAGES USED IN EACH DISABILITY
CASE

The Agency will spend $375 million8 over a 10-year period to scan paper documents
into its electronic folder according to Booz Allen Hamilton estimates. These paper
documents, which will be part of the AeDib process, are now maintained in the Agency’s
disability case folders, and average 250 pages per case file when taken through the full
disability process to the OHA.9

SSA should only scan documents that are essential to support disability determinations.
In addition, the Agency should evaluate whether it can further reduce the scanning of
the 95 additional paper documents used through the continuing disability review phase.
We formally asked for this evaluation at the March 11, 2003, AeDib Steering Committee
meeting. Please provide us with an update on any plans the Agency has to reduce the
number of pages it plans to receive and scan into the electronic folder.

According to the National Council of Disability Determination Directors’ memorandum to
the Commissioner,10 SSA should regard the conversion of paper to digital images as an
interim solution. We concur. SSA’s long-term objective should be the direct electronic
transfer of medical records from providers to DDS systems. President Bush recently
stated that the “implementation of E-Government is important in making Government
more responsive and cost-effective.”11

For example, the Internal Revenue Service’s (IRS) E-Government Program Office has
informed us that the IRS experienced a 50 percent reduction in processing costs by
accepting tax returns electronically. IRS costs vary, but generally, it saves about $1.00
for each e-filed return. However, the true savings for the IRS is in its downstream
operations. For example, the difference in the error rate between paper and e-filed
returns is 22 percent versus 1 percent. Also, because the IRS receives the data
electronically, everything (100 percent) is captured, rather than keying just a subset of
the data. This additional electronic information has also enabled the IRS to achieve
benefits resulting in fewer taxpayer notices, more effective compliance research, fewer
taxpayer contacts (phone or in person), fewer processing centers, and higher accuracy.




8
  Booz Allen Hamilton, SSA eDib Cost-Benefit Analysis, version 2.0a, May 28, 2002, p. 172.
9
  Ibid., p. 176.
10
   National Council of Disability Determination Directors, Memo to Commissioner Barnhart regarding the
AeDib Project, December 16, 2002, page 3.
11
   President George Bush, Presidential Memo, The Importance of E-Government, July 10, 2002.
Page 7 - Martin H. Gerry

MOST AeDIB PROJECT DEADLINES ARE MET BY DEFERRING FUNCTIONALITY

As the chart below details, the Agency is on schedule with respect to most of the
AeDib’s actual release dates; however, much of the functionality is being delayed to
future releases. We understand that the AeDib’s project delays may be necessary to
ensure the release of quality software. OIG informed the AeDib Steering Committee
leaders that any slippage of functionality should be fully discussed with the AeDib
Steering Committee. The Steering Committee leaders did that and discussed the delay
in release 6.0 with the Committee.12


                              Reduction in the Functionality of AeDib


     Version Original Revised         Original Functionality              Revised Functionality
              Dates    Dates           See Attachment A                    See Attachment B

     4.2.3   10/02    10/02      1. Record of Change                 1. Record of Change
                                 2. Subsequent Filings               2. Subsequent Filings
                                 3. Medical Source File updates      3. Medical Source File updates
                                 4. Interface to the Internet 3368   4. Interface to the Internet 3368

                                 1. Children at the Initial          1. Children at the Initial
     5.0     02/03    02/03
                                    Adjudicative Level                  Adjudicative Level
                                 2. Reconsiderations
                                 1. Continuing Disability Reviews    1. Reconsiderations
     5.1     05/03    05/03
                                    (CDR)                            2. Initial Appeals
                                 2. CDR Reconsiderations
                                                                     3. Hearing Cases
                                 3. Hearing Cases
                                 4. All Other Related Forms


     6.0     07/03    07/0313    1. EDCS Interface to Electronic     1. CDRs
                                 Folder                              2. CDR Reconsiderations
                                                                     3. All Other Related Forms

     6.1     12/03    12/03                                          1. EDCS Interface to Electronic
                                                                     Folder




12
   The AeDib Steering Committee was informed on June 17, 2003, that AeDib release 6.0 will be deferred
until after January 2004. We were also informed that this particular release is not needed for the
January 2004 rollout.
13
   It was announced at the June 17, 2003, AeDib Steering Committee meeting that release 6.0 is now
scheduled for August 16, 2003.
Page 8 - Martin H. Gerry

There is no expectation for the Agency to formally respond to this document. If you
have any questions or comments, please call me or have your staff contact Kitt Winter,
Director, Data Analysis and Technology Audit Division at (410) 965-9702, or Al Darago
at (410) 965-9710.




                                        S
                                        Steven L. Schaeffer

Attachments

cc:
Chief Information Officer
Deputy Commissioner for Systems
Deputy Commissioner for Operations
Inspector General
Assistant Deputy Commissioner for DISP
Associate Commissioners for
  Disability Programs
Chair AeDib Steering Committee
Acting Director, Management
  Analysis and Audit Program Support Staff
                                                                         ATTACHMENT A
                                                                            PAGE 1 OF 3

                        Accelerated eDib System Timeline
                                    05/03/02
Internet Disability
The Internet disability applications collect information currently gathered from
the Agency's paper disability form. The initial release, Internet 3368, will collect
medical and work history from disability claimants. Additional applications will
be developed to support the disability process. These applications will collect
supplemental disability and more detailed work information, information about
childhood disabilities, and information required for subsequent appeal
processes. Internet disability applications will improve service to the public,
compensate for resource losses and workload increases, improve the disability
report collection process, and contribute to meeting the Government Paper
Elimination Act requirements.
Date       Milestone
8/02       Production Ready for Initial Functionality of I3368
1/03       Production Ready for Internet I827
4/03       Production Ready for Fully Functional I3368
7/03       Production Ready for Internet I3820
11/03      Production Ready for Internet I3369
12/03      Production Ready for Internet I3441
12/03      Production Ready for Internet I454, I4486, I4631

Electronic Disability Collect System ver 4.2.2
Electronic Disability Collect System (EDCS) provides the means for our
employees to collect information about a claimant’s disability. EDCS 4.2.2 is a
technical release to convert the EDCS from a client/server application to an
intranet application. This release is limited to adult disability cases at the initial
adjudicative level.
Date       Milestone
7/02       Production Ready (Delaware, Texas, & California)
Electronic Disability Collect System ver 4.2.3
Adds the following functionality:
1. Record of Change
2. Subsequent Filings
3. Alternative Methods to Populate the Medical Source Reference File
4. Interface to the Internet 3368
Date       Milestone
10/02      Production Ready for Delaware, Texas, & California
10/02      Production ready for National Rollout
                                                                  ATTACHMENT A
                                                                     PAGE 2 OF 3


Electronic Disability Collect System ver 5.0
Adds the following types of disability cases
1. Child cases at the initial adjudicative level
2. Reconsiderations
Date       Milestone
2/03       Production Ready
Electronic Disability Collect System ver 5.1
Adds the following:
1. Continuing Disability Reviews (CDR)
2. CDR Reconsiderations
3. Hearing Cases
4. All other related forms
Date       Milestone
5/03       Production Ready
Electronic Disability Collect System ver 6.0
EDCS interface to Electronic Folder using MQSeries as the transport
mechanism.
Date       Milestone
7/03       Production Ready
Electronic Disability Collect System ver 6.1
The Disability Determination Services and the Social Security Administration’s
Legacy Applications interface to Electronic Folder using MQSeries as the
transport mechanism. Includes the storage and retrieval of data to a data
repository as well as images and other objects to the Enterprise Document
Imaging Architecture (EDIMA).
Date       Milestone
12/03      Production Ready

Enterprise Document Imaging Architecture
This project will identify and implement the document imaging architecture and
infrastructure required to support the Accelerated eDIB System’s business
process.
Date       Milestone
10/02      Architecture and Infrastructure Recommendations Documented
10/03      Complete Procurements for EDIMA Infrastructure
1/04       Complete EDIMA Infrastructure Installation in Required Sites
                                                                  ATTACHMENT A
                                                                     PAGE 3 OF 3


AS400/Legacy Software
This project includes the migration of Wang/Levy states to IBM AS/400 platform;
migration of Levy code incorporating readiness for EFI; upgrade/replacement of
existing AS/400s in order to accommodate EFI; readiness of Versa, Midas, and
independent software systems for EFI.

Group 1 States =    VA, WV, MD, WI, IN, GA, AR, OH, OK, IA, NC, FL, NM, RI,
                    SD, Federal Disability Determination Service (FDDS)
Group 2 States = KS, MA, WA, DC, KY, MT, CT, MI, CO, AZ, LA, VT, PR
Date     Milestone
6/02     Installation of AS/400 Complete for RI, SD, KS, MA, FDDS
9/02     AS/400 Training Completed for RI, SD, KS, MA, FDDS
9/02     Installation of AS/400 for DC, KY, MT, CT, MI, CO, AZ, LA, VT, PR
10/02    VERSA and LEVY Pre-Implementation in support of EDCS 4.2.3
12/02    AS/400 Training Completed for DC, KY, MT, CT, MI, CO, AZ, LA, VT,
         PR
12/02    Complete Business Process Description for NY, NE, and Midas
         states.
12/02    Production Ready “ALL” - Group 1 States
10/03    Production Ready “ALL” - Group 2 States

The Office of Hearings and Appeals Case Processing and
Management System
The Office of Hearings and Appeals (OHA) Case Processing and Management
System will provide automation to the Hearing Offices activities.
Date      Milestone
10/02     Determine Systems Design
12/03     Pre-Production Implementation
1/04      Production Ready

Complete Business Process Description
Date      Project
6/02      OHA, Operations, Office of Quality Assurance and Office of Disability
                                                                             ATTACHMENT B
                                                                                PAGE 1 OF 3

                        Accelerated eDib System Timeline
                                    03/28/03
Internet Disability
The Internet disability applications collect information currently gathered from
the Agency's paper disability form. The initial release, i3368, will collect medical
and work history from disability claimants. Additional applications will be
developed to support the disability process. These applications will collect
supplemental disability and more detailed work information, information about
childhood disabilities, and information required for subsequent appeal
processes. Internet disability applications will improve service to the public,
compensate for resource losses and workload increases, improve the disability
report collection process, and contribute to meeting the Government Paper
Elimination Act requirements.
Date       Milestone
08/02      Production Ready for Initial Functionality of i3368
04/03      Production Ready for Fully Functional i3368
05/03      Production Ready for Internet i454
07/03      Production Ready for Internet i3820
09/03      Production Ready for Internet i3369
12/03      Production Ready for Internet i3441and i827

Electronic Disability Collect System ver. 4.2.2
Electronic Disability Collect System (EDCS) provides the means for our
employees to collect information about a claimant’s disability. EDCS 4.2.2 is a
technical release to convert the EDCS from a client/server application to an
intranet application. This release is limited to adult disability cases at the initial
adjudicative level.
Date       Milestone
07/02      Production Ready for Delaware, Texas, & California
Electronic Disability Collect System ver 4.2.3
Adds the following functionality:
5. Record of Change
6. Subsequent Filings
7. Alternative Methods to Populate the Medical Source Reference File
8. Interface to the Internet 3368
Date       Milestone
10/02      Production Ready for Delaware, Texas, & California
10/02      Production ready for National Rollout
Electronic Disability Collect System ver 5.0
Adds Child cases at the Initial adjudicative level
Date      Milestone
03/03     Production Ready
                                                                      ATTACHMENT B
                                                                         PAGE 2 OF 3


Electronic Disability Collect System ver 5.1
Adds Initial Appeals
Date       Milestone
05/03      Production Ready
Electronic Disability Collect System ver 6.0
EDCS interface to Electronic Folder using MQSeries as the transport
mechanism and the following
1. Alerts of field office Update -- Post Transfer
2. Viewing of Document Management Architecture (DMA) Contents (for pilot
    sites)
3. Continuing Disability Reviews (CDR)
4. CDR Reconsiderations
5. All Other Related Forms
Date       Milestone
07/03      Production Ready
Electronic Disability Collect System ver 6.1
The Disability Determination Services and the Social Security Administration’s
Legacy Applications interface to Electronic Folder using MQSeries as the
transport mechanism. Includes the storage and retrieval of data to a data
repository as well as viewing of images and other objects within the DMA.
Jurisdictional and workflow controls are also included.
Date       Milestone
12/03      Production Ready

             Document Management Architecture
This project will identify and implement the document imaging architecture and
infrastructure required to support the Accelerated eDib System’s business
process.
Date       Milestone
10/02      Architecture and Infrastructure Recommendations Documented
07/03-     DMA Pilots
12/03
10/03      Complete Procurements for DMA Infrastructure
01/04      Complete DMA Infrastructure Installation in Required Sites

The Office of Hearings and Appeals Case Processing and
Management System
The Office of Hearings and Appeals (OHA) Case Processing and Management
System will provide automation to the Hearing Offices activities.
Date      Milestone
10/02     Determine Systems Design
12/3/03 Pre-Production Implementation
1/26/04 Production Ready
                                                                     ATTACHMENT B
                                                                        PAGE 3 OF 3




AS400/Legacy Software
This project includes the migration of Wang/Levy states to IBM AS/400 platform;
migration of Levy code incorporating readiness for EFI; upgrade/replacement of
existing AS/400s in order to accommodate EFI; readiness of Versa, Midas, and
independent software systems for EFI.

Group 1 States =    VA, WV, MD, WI, IN, GA, AR, OH, OK, IA, NC, FL, NM, RI,
                    SD, Federal Disability Determination Service (FDDS)
Group 2 States = KS, MA, WA, DC, KY, MT, CT, MI, CO, AZ, LA, VT, PR
Date     Milestone
06/02    Installation of AS/400 Complete for RI, SD, KS, MA, FDDS
09/02    Installation of AS/400 for DC, KY, MT, CT, MI, CO, AZ, LA, VT, PR
10/02    Production Ready Version 4.2.3 in MIDAS pilot state
12/02    Production Ready ALL Group 1 States with Levy AS/400 Application
         Code in Preparation for EFI
02/03    Production Ready Version 4.2.3 in Versa and Levy pilot states
03/03-   Production Ready Version 5.0 in Versa (TX, MN, WY) and Levy
04/03    pilot states (WV, OK, IA) and MIDAS (DE, CA)
07/03    Production Ready Version 5.1 rollout to remaining states
07/03-   DMA pilot in MIDAS, Versa and Levy pilot states
12/03
08/03    Production Ready Version 6.0 in MIDAS, Versa and Levy pilot
         states
10/03    Production Ready ALL Group 1 and Group 2 States with Levy
         AS/400 Application Code with EFI
12/03    Production Ready Version 6.1 in MIDAS, Versa and Levy pilot
         states

Quality Assurance Systems
This project will integrate the existing disability Quality Assurance systems
(DICARS, OHAPER and DHQRS) with AeDib. It will support migration to a
paperless business process and provide the Office of Quality Assurance (OQA)
with access to the electronic folder.
Date      Milestone
6/03      Determine Systems Design
8/03      Initial Pilot
1/04      Production Ready

Complete Business Process Description
Date      Project
6/02      OHA, Operations, OQA and Office of Disability
